HHS/OIG, Audit -"Audit of Blue Cross Blue Shield of South Carolina's Medicare Contract Pension Segmentation for
1993 Through 2001,"(A-07-03-03042)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Blue Cross Blue Shield of South Carolina's Medicare Contract Pension Segmentation for 1993 Through 2001," (A-07-03-03042)
February 18, 2005
Complete
Text of Report is available in PDF format (303 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine if South Carolina:  (1) implemented our prior audit recommendation, and (2) complied
with the Medicare contracts pension segmentation requirements while updating the Palmetto and TrailBlazer Medicare segment
assets from January 1, 1993, to January 1, 2002.  We found that South Carolina implemented our prior audit recommendation
to increase Medicare segment assets by $394,005.  However, South Carolina did not comply with the Medicare contracts pension
segmentation requirements while updating the Palmetto and TrailBlazer Medicare segment pension assets.  South Carolina
understated Palmettos Medicare segment assets by $1,106,482 and overstated TrailBlazers Medicare segment assets by $345,006.  South
Carolina did not have adequate controls to ensure that its Medicare segments were identified in accordance with the Medicare
contracts and that segment assets were updated in accordance with Cost Accounting Standards (CAS) 412 and 413.  We
recommend that South Carolina:  (1) increase Palmettos Medicare segment pension assets by $1,106,482 as of January
1, 2002, (2) decrease TrailBlazers Medicare segment pension assets by $345,006 as of January 1, 2002, and (3) implement
controls to ensure that Medicare segments are identified in accordance with the Medicare contracts and updated in accordance
with CAS 412 and 413.  South Carolina agreed with the findings and recommendations.  However, they requested
an explanation of the allocation of interest on accumulated prepayment credits and additional input on the determination
of those areas that should be included in the Medicare segment.